No. 20-297
IN THE SUPREME COURT OF THE UNITED STATES
TRANS UNION LLC,
Petitioner,

v.
SERGIO L. RAMIREZ,

Respondent.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the accompanying
Brief of Amici Curiae Public Citizen and Public Citizen Foundation in Support of
Respondent contains 6,329 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
Executed on March 10, 2021.

SCOTT L. NELSON
PUBLIC CITIZEN LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
202-588-1000

